DOE/IG-0477




INSPECTION                            INSPECTION OF
  R E P O R T                 COST RECOVERY CONCERNS AT THE
                                 OFFICE OF SCIENTIFIC AND
                                  TECHNICAL INFORMATION




                                        JULY 2000




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                                         July 26, 2000


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman /s/
               Inspector General

SUBJECT:       INFORMATION: Report on “Inspection of Cost Recovery Concerns at the
               Office of Scientific and Technical Information”

BACKGROUND

The Office of Inspector General (OIG), U.S. Department of Energy (DOE), received a
complaint concerning possible misuse of cost recovery funds at the Office of Scientific
and Technical Information (OSTI). Specifically, it was alleged that: 1) some cost
recovery funds from DOE’s Office of Defense Programs were placed in OSTI’s “general
fund” and used for miscellaneous expenses unrelated to the Work Authorization provided
by Defense Programs; 2) some cost recovery funds were used to cover Federal employee
salaries; and 3) Defense Programs funds were used to purchase a computer server which
was not used for a Defense Programs project. As you know, since the inception of our
review, the Office of Defense Programs has become part of the National Nuclear Security
Administration.

RESULTS OF INSPECTION

•   The OIG found that OSTI stopped maintaining records containing sufficient details to
    account for all funds and costs in accordance with DOE Order 534.1, “Accounting,” which
    requires DOE to maintain a system of accounts in accordance with regulatory requirements
    established by the Office of Management and Budget, the General Accounting Office, and
    the Department of the Treasury.

•   The OIG found that cost recovery funds were used to pay OSTI Federal salaries. This may
    be contrary to appropriations law as OSTI’s program direction account, which includes
    payment of Federal salaries, is a line item in the Congressional budget. However, based on
    the lack of detailed records, the OIG was unable to resolve whether OSTI’s cost recovery
    activities resulted in an augmentation of OSTI’s budget.

•   The OIG found that OSTI did purchase a computer server with Defense Programs’ funds.
    However, the computer server could not be used for the Defense Programs project as planned
    and was, therefore, used on another OSTI project. OSTI subsequently purchased another
    computer server with OSTI funds to use on the Defense Programs project. Because the
    computer server had decreased in cost, OSTI reimbursed Defense Programs the difference in
    cost.
We provided management with recommendations that, if implemented, would provide adequate
detailed record keeping to account for all OSTI financial transactions, and strengthen weaknesses
in OSTI’s cost recovery activities for other DOE program offices. In addition, the Office of
General Counsel, in consultation with the Office of the Chief Financial Officer, determined that
DOE program offices may enter into agreements with OSTI for products or services unless
otherwise funded by OSTI appropriations. However, the Office of General Counsel could not
determine if OSTI’s costs for performing work beyond OSTI’s appropriation was an improper
augmentation because OSTI did not maintain detailed records.

Management’s comments were responsive to the recommendations.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Under Secretary for Nuclear Security
    General Counsel
    Chief Financial Officer
    Director, Office of Science
    Director, Office of Scientific and Technical Information
Inspection of Cost Recovery Concerns at the
Office of Scientific and Technical Information


TABLE OF
CONTENTS



                   Overview

                   Introduction and Objective ············································      1

                   Conclusions and Observations·····································            3

                   Details of Findings·······················································   4

                   OSTI’s Use of a Full Cost
                    Recovery Program for
                    DOE Program Offices·················································        4

                   DP Cost Recovery Funds Used
                    for Purposes Unrelated to
                    Work Authorization·······················································   4

                   Cost Recovery Funds Used to
                    Pay Federal Salaries··················································      5

                   Cost Recovery Funds Used to
                    Purchase a Computer Server
                    Used on an Unrelated Project····································            7

                   Recommendations·······················································       8

                   Management Comments············································              8

                   Inspector Comments···················································        9

                   Appendix

                   A. Predication and Methodology ································              10
Overview
INTRODUCTION                      The Office of Inspector General, U.S. Department of Energy
AND OBJECTIVE                     (DOE), received a complaint concerning the Office of Scientific
                                  and Technical Information (OSTI), which is located in Oak Ridge,
                                  Tennessee. Specifically, the complainant alleged that OSTI
                                  possibly misused cost recovery1 funds from a DOE program office.
                                  OSTI is the key organizational element for DOE’s retention of
                                  research and development information.

                                  The Department of Energy plays a major role in the nation's
                                  research and development (R&D) through DOE’s extensive system
                                  of national laboratories and partnerships with industries, academia,
                                  and other R&D performers. According to the DOE Fiscal Year
                                  (FY) 2000 Congressional Budget Request, DOE’s national
                                  laboratories employ nearly 30,000 scientific and technical
                                  personnel. The Department has historically devoted significant
                                  resources to funding R&D activities and is among the top five
                                  Federal R&D funding agencies regardless of the criteria used:
                                  total R&D, basic research, applied research, development, or
                                  academic research. DOE spent approximately $7 billion for R&D
                                  in FY 1999 and plans to spend $7.5 billion in FY 2000. In most
                                  instances, scientific and technical information is the only
                                  demonstrable result of the research.

                                  DOE Order 241.1, “Scientific and Technical Information
                                  Management,” establishes Department of Energy requirements and
                                  responsibilities to ensure that scientific and technical information
                                  is identified, processed, disseminated, and preserved. This is the
                                  mission of DOE’s Technical Information Management program
                                  which is carried out by OSTI. OSTI is the repository for
                                  unclassified and classified scientific and technical information.
                                  OSTI provides the scientific community and the public access to
                                  DOE’s research and development efforts. Particularly significant
                                  is OSTI’s interagency agreement with the Government Printing
                                  Office, which provides searchable, full-text access to unclassified
                                  scientific and technical information via the internet.

                                  OSTI’s program mission includes collection and retrieval
                                  capability for classified nuclear information by providing R&D
                                  results from DOE’s and its predecessors’ programs to authorized
                                  DOE, contractor, and other agency personnel. Classified
                                  information is used for maintaining a credible nuclear deterrent.
                                  Due to recent changes in the U.S. nuclear posture, the Department


        1
           Cost recovery refers to the Federal Government’s policy of recovering cost for services rendered or
material provided to recipients as prescribed in OMB Circular A-130, Appendix, “Cost Accounting, Cost Recovery,
and Interagency Sharing of Information Technology Facilities,” and in OMB Circular A-25, “User Charges.”


Page 1                                                                       Introduction and Objective
         must now rely on scientific understanding, expert judgment, and
         computer modeling rather than on nuclear testing.

         Although the OSTI mission has remained basically the
         same, OSTI staffing and budget had been reduced by 46
         percent since 1995. In FY 1995, OSTI had 286 full time
         equivalent Federal and contractor employees. By FY 1999,
         this number was 134 employees. Also, OSTI’s budget was
         $16.1 million in FY 1995 and $8.6 million in FY 1999.
         Customer use of OSTI's internet systems has increased
         from 250,000 accesses in FY 1995 to 1.2 million in FY
         1999, and 3 million pages of full-text information are
         available electronically, compared to zero in 1995.

         During this time period, OSTI also continued to receive
         approximately $5 million a year through a full cost recovery
         program from other DOE program offices as well as other
         governmental and non-governmental agencies and programs.
         OSTI activities which support Departmental elements have been
         conducted on a full cost recovery basis since the late 1980’s.
         OSTI’s cost recovery program is based upon DOE Order 2110.1A,
         entitled “Pricing of Departmental Materials and Services,” dated
         July 14, 1988, and current OSTI policy.

         Specifically, the objective of this inspection was to review the
         complaint received by the Office of Inspector General alleging
         that:

         •   Some cost recovery funds from DOE’s Office of Defense
             Programs (DP) were placed in the OSTI “general fund” and
             used for miscellaneous expenses unrelated to the Work
             Authorization provided by DP.

         •   Some cost recovery funds were used to cover Federal
             employee salaries.

         •   DP funds were used to purchase a computer server for a
             classified project; however, the server was placed on an
             unclassified project unrelated to the work DP was funding.




Page 2                                         Introduction and Objective
CONCLUSIONS AND   The OIG reviewed approximately $550,000 allotted to OSTI from
OBSERVATIONS      DP in FY 1998. Of that amount, the OIG could not track
                  approximately $150,000 of the DP funds that were spent by OSTI
                  because OSTI management decided to stop maintaining a detailed
                  cost accounting system. The OIG determined this decision to be
                  contrary to DOE Order 534.1, “Accounting,” which requires DOE
                  to maintain a system of accounts in accordance with regulatory
                  requirements established by the Office of Management and Budget
                  (OMB), the General Accounting Office, and the Department of the
                  Treasury. Additionally, the OIG concluded that the method OSTI
                  used to cost recover funds from DP may not be in accordance with
                  DOE policy because OSTI does not record Federal employee hours
                  spent working on projects. Finally, although none of the DP cost
                  recovery funds appears to have been used to pay OSTI Federal
                  salaries, the OIG found that other cost recovery funds have been
                  used to pay OSTI Federal salaries. This may be contrary to
                  appropriations law as OSTI’s program direction account, which
                  includes payment of Federal salaries, is a line item in the
                  Congressional budget. Based on Office of General Counsel
                  comments to our draft report, it was determined that there was
                  insufficient information available to conclude whether an improper
                  augmentation had occurred.

                  The OIG recommended that the Chief Financial Officer direct
                  OSTI to ensure OSTI records contain sufficient details to account
                  for all funds, assets, liabilities, and costs. Further, the OIG
                  recommended that the Director of OSTI take appropriate corrective
                  action for cost recovery. OSTI has agreed to develop a costing
                  methodology to be approved by the Office of the Chief Financial
                  Officer.




Page 3                                            Conclusions and Observations
Details of Findings
OSTI’s Use of a Full    The majority of the $5 million in cost recovery projects managed
Cost Recovery           by OSTI is for DOE program offices. However, OSTI’s use of a
Program for DOE         full cost recovery program for DOE program offices is not
Program Offices         authorized by DOE Order 2110.1A and Title 10, Code of Federal
                        Regulations (C.F.R.), Part 1009 - “GENERAL POLICY FOR
                        PRICING AND CHARGING FOR MATERIALS AND
                        SERVICES SOLD BY DOE,” which are applicable only to cost
                        recovery work performed for external organizations. Though the
                        Economy Act provides OSTI the authority to perform reimbursable
                        work for other DOE program offices, the Department has not
                        issued implementing procedures through DOE directive or
                        regulation for such reimbursable work for DOE programs.

                        OSTI’s cost recovery policy, dated December 2, 1996, was
                        established and approved internally by OSTI senior officials.
                        OSTI’s full cost recovery policy specifically references DOE
                        Order 2110.1A. However, the purpose of DOE Order 2110.1A is
                        “to establish policy for establishing prices and charges for
                        materials and services sold or provided by the Department . . . to
                        external organizations.” Therefore, the OIG determined that
                        because DOE Order 2110.1A only addresses external
                        organizations, corrective actions are needed for OSTI to continue
                        applying full cost recovery to other DOE program offices.

                        The following discussion addresses the allegations and findings.

Allegation 1            •   In FY 1998, some cost recovery funds from DP were placed in
                            the OSTI “general fund” and used for miscellaneous expenses
                            unrelated to the Work Authorization provided by DP.

DP Cost Recovery        In FY 1998, OSTI received approximately $550,000 from DP to
Funds Used for          manage selected DP cost recovery projects. These funds were
Purposes Unrelated      placed under OSTI’s control using two budget and reporting
to Work Authorization   (B&R) classification codes DP01 and DP05. The DP01 funds
                        were allocated for the cost recovery project “Nuclear Weapons
                        Information Group.” The DP05 funds were allocated for two cost
                        recovery projects, “Classified Support” and the “Joint Atomic
                        Information Exchange Group.”

                        The OIG found that for DP01 and DP05 (Joint Atomic Information
                        Exchange Group) cost recovery projects, OSTI properly charged
                        service or product expenses, such as travel, purchase orders, and
                        subcontracted work, to the respective project. However, $150,000
                        of the funds allocated to the DP05 (Classified Support) cost
                        recovery project, rather than being charged directly to the DP05
                        B&R code as a service or product expense, was designated



Page 4                                                                Details of Findings
                      “inhouse” and placed in the OSTI program mission account. OSTI
                      did not maintain a detailed cost accounting system; therefore, the
                      OIG was unable to determine whether the $150,000 was spent for
                      the OSTI program mission or the DP05 Classified Support cost
                      recovery project.

                      OSTI’s project tracking system, called the Special Resource
                      Tracking System (SRTS), tracks the allotted funds by project. The
                      SRTS system is an online system that is accessible to OSTI’s
                      Account Executives and the Project Mangers. OSTI also uses
                      DOE’s Departmental Integrated Standardized Core Accounting
                      System (DISCAS). However, neither system indicates how the
                      $150,000 was spent. DOE Order 534.1, “Accounting,” requires
                      records of DOE elements to “contain sufficient details to account
                      for all DOE funds, assets, liabilities, and costs.” Contrary to this
                      Order, neither system provided OSTI with a detailed cost
                      accounting system which would identify specifically how the funds
                      were eventually spent. Additionally, the OIG could not determine
                      a valid justification for designating any of the cost recovery
                      expense as “inhouse” and subsequently placing the funds in the
                      OSTI program mission account.

Allegation 2          •   Some cost recovery funds were used to cover Federal
                          employee salaries.

Cost Recovery Funds   The OIG found that approximately $500,000 received through
Used to Pay Federal   DOE cost recovery projects were placed in the OSTI program
Salaries              direction account to assist with payment of Federal salaries in FY
                      1998. OSTI officials told us that OSTI recovers Federal labor
                      costs and has a cost recovery pricing policy based on DOE Order
                      2110.1A. Both the OSTI policy, “Office of Scientific and
                      Technical Information Cost Recovery of DOE Resources Pricing
                      Policy,” and DOE Order 2110.1A allow charging a customer for
                      direct labor costs plus benefits of Federal employees. The OSTI
                      policy and the DOE Order indicate that labor costs are composed
                      of the time to complete the job and the pay scale of the labor skills
                      required. The OSTI policy allows for using the actual labor and
                      fringe benefits rate or a standard OSTI labor and fringe benefits
                      rate. Both the DOE Order and the OSTI policy require knowledge
                      of which employee worked on a project and how much time was
                      spent on a specific project. However, the OIG was told OSTI
                      employees only indicate when leave is taken, not what hours are
                      spent on a particular project. Therefore, OSTI’s procedure for
                      recovering labor costs of Federal employees is contrary to its
                      policy and the DOE Order.




Page 5                                                               Details of Findings
         Additionally, the OIG found that the OSTI program direction
         account and OSTI’s program mission account are line items in the
         Congressional budget. The OIG reviewed OSTI’s FY 1999
         Budget Execution Plan, which shows actual obligations and costs
         for FY 1998. It appears that not only did OSTI use approximately
         $500,000 of cost recovery funds in its program direction account,
         OSTI also used approximately $2.3 million of cost recovery funds
         in its program mission account. Also, this OSTI document
         indicates that OSTI had obligated these cost recovery funds to their
         OSTI accounts, possibly in addition to the Congressional
         appropriations amount.

         The General Accounting Office/Office of General Counsel-92-13
         Appropriations Law-Volume II, Chapter 6 “Availability of
         Appropriations: Amount, Part E. Augmentation of
         Appropriations,” states that:

                When Congress makes an appropriation, it is also
                establishing an authorized program level. In other
                words, it is telling the agency that it cannot operate
                beyond the level that it can finance under its
                appropriation. . . . Restated, the objective of the
                rule against augmentation of appropriations is to
                prevent a government agency from undercutting the
                congressional power of the purse by circuitously
                exceeding the amount Congress has appropriated
                for that activity.

         According to the U.S. Department of Energy Fiscal Year 1998
         Congressional Base Table by Appropriation, a set amount was
         obligated for OSTI’s program direction account and a set amount
         for OSTI’s program mission account. Therefore, the OIG
         determined that the addition of cost recovery funds to the OSTI
         accounts may have been an augmentation of appropriations.
         Because OSTI had inadequate record keeping, the Office of
         General Counsel determined there was insufficient information to
         conclude whether an improper augmentation had occurred.




Page 6                                                  Details of Findings
Allegation 3              •   DP funds were used to purchase a computer server for a
                              classified project; however, the server was placed on an
                              unclassified project unrelated to the work DP was funding.

Cost Recovery Funds       The OIG found that OSTI did purchase a computer server with
Used to Purchase a        DP01 funds, which was intended for the Nuclear Weapons
Computer Server Used      Information Group (NWIG) cost recovery project. However, OSTI
on an Unrelated Project   management explained that, due to technical delays, the server
                          could not be used as planned and rather than let the equipment go
                          unused, they agreed it would be better to use the server on the
                          OSTI unclassified project, part of OSTI’s program mission, with
                          the explicit understanding that a new server would be purchased
                          for the DP project when it was ready to resume. At the time the
                          server was used for the OSTI unclassified project, OSTI
                          management had not informed DP of the use of the server.
                          However, during our inspection, OSTI management notified DP of
                          their action.

                          Since the initial computer server was used for OSTI’s unclassified
                          project, OSTI decided to purchase, with OSTI funds, another
                          server of the same model. This second server was to be used for
                          the DP01 NWIG cost recovery project to replace the first server
                          purchased with DP01 funds. During the OIG inspection OSTI
                          discovered that the second server, although identical to the first
                          one, had decreased in price and credited the difference of $8,225 to
                          DP01.




Page 7                                                                  Details of Findings
RECOMMENDATIONS   We recommend that the Chief Financial Officer:

                  1. Direct OSTI management to ensure OSTI records contain
                     sufficient details to account for all funds, assets, liabilities, and
                     costs.

                  We recommend that the General Counsel, in consultation with the
                  Chief Financial Officer:

                  2. Review the issue of whether the cost recovery funds received
                     by OSTI from DOE program offices are an augmentation of its
                     appropriation in violation of law.

                  We recommend that the Director, Office of Scientific and
                  Technical Information:

                  3. Take appropriate corrective action for cost recovery.

MANAGEMENT        Management provided responses to the draft report. They
COMMENTS          concurred with Recommendations 1 and 3, and commented on
                  Recommendation 2.

                  The Chief Financial Officer concurred with Recommendation 1.
                  OSTI has advised the Office of the Chief Financial Officer “that
                  actions to address this recommendation will be completed by
                  October 1, 2000.”

                  Regarding Recommendation 2, the Office of General Counsel, in
                  consultation with Office of the Chief Financial Officer, reviewed
                  the issue and determined that “The Economy Act (31 U.S.C. 1535-
                  36) authorizes the placing of orders for goods or services inter- or
                  intra-departmentally on a reimbursable basis. . . . Thus, major
                  organizational units (e.g., the . . . Office of Defense Programs)
                  within DOE may enter into agreements with OSTI for products or
                  services . . . as long as these products or services are not otherwise
                  funded by OSTI appropriations.” However, the Office of General
                  Counsel did “not have sufficient information on OSTI’s costs for
                  performing work beyond OSTI’s appropriation to conclude
                  whether there is an improper augmentation” as “OSTI did not
                  maintain records that are detailed enough to determine its complete
                  costs.”

                  OSTI management concurred with Recommendation 3. OSTI
                  agreed to take two actions to resolve any issues associated with
                  their cost recovery activities. First, OSTI “will submit a costing
                  methodology to the Deputy Controller, outlining the process



Page 8                               Recommendations/Management Comments
            [OSTI] will have in place on October 1, 2000, to fully account for
            actual federal labor cost in support of cost-reimbursable activities.”
            Second, for the internal DOE budget formulation process,
            September 1, 2000, OSTI “will add language to [their] Fiscal Year
            (FY) 2002 Congressional Budget Request to indicate that [they]
            provide cost-reimbursable services to other DOE offices and other
            government entities using both federal and contractor staff.”

            The Office of the Chief Financial Officer additionally commented
            that “The CFO has determined that DOE Order 2110.1A, Pricing
            of Departmental Materials and Services, does not apply to OSTI
            work performed for other DOE program offices. It only applies to
            external organizations.”

INSPECTOR   Management’s comments were responsive to the
COMMENTS    recommendations. The OIG has incorporated OSTI management’s
            general comments into the report where appropriate.




Page 9                                   Management/Inspecto r Comments
Appendix A
PREDICATION   The Office of Inspector General, U.S. Department of Energy,
              received a complaint concerning possible misuse of cost recovery
              funds at the Office of Scientific and Technical Information, which
              is located in Oak Ridge, Tennessee. The OIG initiated this
              inspection in April 1999.

METHODOLOGY   In conducting this inspection, the OIG identified and reviewed
              applicable Federal and DOE regulations. The OIG interviewed
              current and former DOE officials and employees. The OIG
              reviewed key records applicable to the inspection.

              This inspection was conducted in accordance with Quality
              Standards for Inspections issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                        Predication and Methodology
                                                                    IG Report No. DOE/IG-0477

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
   attached to the report
